        DEPARTMENT OF HEALTH & HUMAN SERVICES                                        O,ffice of Inspector General



                                                                                     Washington, D.C. 20201




                                         JUL 2 8 !JOg .
TO:            Colleen Barros
               Deputy Director for Management
               National Institutes of He

                      C~
FROM:          Joseph E. Vengrin
               Deputy Inspector General for Audit Services


SUBJECT:       Superfund Financial Activities at the National Institute of Environmental Health
               Sciences for Fiscal Year 2008 (A-04-09-01 062)


This final report provides the results of our audit of Superfund financial activities at the National
Institute of Environmental Health Sciences (NIEHS) for fiscal year (FY) 2008. We conducted
the audit to comply with provisions of the Comprehensive Environmental Response,
Compensation, and Liability Act of 1980 (CERCLA), which requires the Inspector General of a
Federal organization with Superfund responsibilities to audit all uses of the Superfund.

BACKGROUND

NIEBS, located in Research Triangle Park, North Carolina, is one of 27 institutes and centers of
the National Institutes of Health (NIH), which is a component of the Department of Health and
Human Services. NIH provides NIEHS with direction, billing services, and other administrative
and professional services.

The CERCLA mandated the establishment of the Hazardous Substance Response Trust Fund,
which is commonly known as Superfund. The CERCLA was extended and amended by the
Superfund Amendments and Reauthorization Act of 1986. The fund is usedto respond to
emergency environmental conditions that are hazardous to health and to pay for the removal of
toxic substances.

NIEHS receives funding to carry out functions mandated by the CERCLA. In carrying out its
Superfund responsibilities for FY 2008, NIEHS obligated about 4 percent ofthese funds for
administrative costs and awarded the remaining 96 percent to other organizations to:

   •   train persons who are engaged in handling hazardous waste and managing facilities
       where hazardous waste is located and
Page 2 – Colleen Barros


   •    conduct research, including advanced techniques, methods, and technologies to detect,
        assess, and evaluate the effects of hazardous substances on human health and to reduce
        the amount and toxicity of those substances.

From October 1, 2007, through September 30, 2008, NIEHS obligated about $77.4 million and
disbursed about $85.5 million in Superfund resources. Of the $85.5 million in disbursements,
$5.8 million was related to FY 2008 funds. The remaining $79.7 million was related to prior
periods.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether costs recorded by NIEHS were allowable, allocable, and
reasonable in accordance with applicable laws and regulations.

Scope

The scope of our audit included FY 2008 Superfund obligations and disbursements obligated
between FYs 2003 and 2008. We did not audit disbursements by grantees; these awards are
subject to independent audits under 45 CFR § 74.26.

We performed fieldwork at NIEHS in Research Triangle Park, North Carolina, from February
through April 2009.

Methodology

NIEHS provided a financial transaction listing of all Superfund obligations and disbursements
recorded from October 1, 2007, through September 30, 2008. The listing included grant and
interagency agreement obligations of $74,292,583 and nongrant obligations of $3,059,806. The
$74,292,583 of grant and interagency agreement obligations consisted of $74,316,335 in
obligations of FY 2008 funds and $23,752 in reductions to obligations of prior-year funds. In
addition, the listing included grant and interagency agreement disbursements of $81,999,807 and
nongrant disbursements of $3,533,757.

NIEHS entered into agreements with universities, unions, other organizations, and another
Federal agency to carry out its responsibilities under the CERCLA. We verified $72.8 million of
obligations against grant award documents for 70 research and training grants. We also traced
$1.5 million of interagency agreement obligations to the interagency agreement document.

We determined whether grantees had submitted current audits in accordance with the regulation
and analyzed report data to determine whether the reports contained any significant findings
related to Superfund. In addition, we performed a limited review of NIEHS monitoring activities
for eight judgmentally selected grants.
Page 3 – Colleen Barros


We reviewed NIEHS’s internal controls to the extent necessary to accomplish the objective of
the audit. We limited our review to obtaining an understanding of controls over funding
authority, financial reporting, and grants.

Because audits in past years contained no findings related to administrative costs, we limited our
testing of administrative disbursements to comparing administrative disbursements recorded
during FY 2008 with administrative disbursements recorded during the previous FY.

We reviewed the FY 2007 Superfund audit report (report number A-04-08-01057) and
determined that the report contained no findings requiring followup.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

RESULTS OF AUDIT

The Superfund financial transactions for the period October 1, 2007, through September 30,
2008, were allowable, allocable, and reasonable in accordance with applicable laws and
regulations. These Superfund transactions related to FY 2003 through FY 2008 funds.

In general, NIEHS took appropriate action to ensure that its Superfund grantees submitted
required audit reports.

                                            *****

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of Inspector General reports
generally are made available to the public to the extent that information in the report is not
subject to exemptions in the Act. Accordingly, this report will be posted on the Internet at
http://oig.hhs.gov.

As this report contains no recommendations, no response is necessary. However, if you have any
questions or comments about this report, please do not hesitate to call me, or have your staff contact
Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and Information
Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-04-09-01062.
